U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

August 2, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Smith v. United States, No. 20-8143
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 20, 2021.
The government’s response is now due, after one extension, on August 16, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
September 15, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-8143
SMITH, MERWIN
USA

MELISSA GOYMERAC
FPD-EDMO
1010 MARKET ST
STE. 200
ST. LOUIS, MO 63101
314-241-1255
MELISSA_GOYMERAC@FD.ORG

